No. 19-1212
IN THE

Supreme Court of the United States
_________
DAVID PEKOSKE, ACTING SECRETARY OF
HOMELAND SECURITY, ET AL.,
Petitioners,
v.
INNOVATION LAW LAB, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 22nd day of January 2021, caused three copies of the Brief of
Immigration and International Law Scholars as Amici Curiae In Support of
Respondents to be served via overnight mail and an electronic version of the document
to be transmitted via the Court’s electronic filing system to:
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Judy Rabinovitz
American Civil Liberties Union
125 Broad Street
18th Floor
New York, NY 10004
(212) 549-2618
JRabinovitz@aclu.org

Counsel for Chad Wolf, Acting
Secretary of Homeland Security, et al.

Counsel for Innovation Law Lab, et al.

/s/ Zachary C. Schauf
Zachary C. Schauf

